                     United States Department of Justice
                          Office of the Inspector General
                                            Audit Division




   Audit Report

  Independent Evaluation
      Pursuant to the
  Government Information
    Security Reform Act
     Fiscal Year 2002

 The United States Marshals
Service’s Warrant Information
           Network




     November 2002
         03-03
           INDEPENDENT EVALUATION PURSUANT TO THE
         GOVERNMENT INFORMATION SECURITY REFORM ACT
                      FISCAL YEAR 2002

               THE UNITED STATES MARSHALS SERVICE’S
                  WARRANT INFORMATION NETWORK

                  OFFICE OF THE INSPECTOR GENERAL
                         EXECUTIVE SUMMARY

       The mission of the United States Marshals Service (USMS) is to protect
the Federal courts and ensure the effective operation of the judicial system.
Specifically, the USMS is responsible for providing protection for the federal
judiciary, transporting federal prisoners, protecting endangered federal
witnesses, and managing assets seized from criminal enterprises.

       The Warrant Information Network (WIN) contains the warrant, court
records, internal correspondence related to the warrant, and other
information on individuals for whom federal warrants have been issued.
WIN is used to track the status of all federal warrants to aid in the
investigations of all federal fugitives. It is also used to access the National
Law Enforcement Telecommunication System (NLETS) and National Crime
Information Center (NCIC) systems to obtain criminal record information
from other federal, state, local and foreign law enforcement agencies
participating in or cooperating with USMS fugitive investigations and
apprehension efforts and to update the respective systems with new
prisoner information.

      WIN is accessed by both USMS district offices and headquarters users
through the Marshal Network (MNET). MNET is the backbone unclassified
network for USMS operations. MNET is a sensitive but unclassified system
that provides office automation tools to USMS personnel in carrying out their
worldwide mission. MNET is accessible from field sites and from certain
other federal agencies and commercial organizations.

     The Office of the Inspector General (OIG) was required by the
Government Information Security Reform Act (GISRA) to perform an
independent evaluation of the United States Department of Justice
(Department) information security program and practices. The OIG selected
WIN as one of five sensitive but unclassified systems to review pursuant to
GISRA for the fiscal year 2002. However, because of WIN’s dependence on
MNET, audit work was expanded to include MNET as well.




                                      -i-
       Under the direction of the OIG and in accordance with Government
Auditing Standards, PricewaterhouseCoopers LLP (PwC) performed the
audits of WIN and MNET. This report contains the audit results of the WIN
and MNET systems. Separate reports will be issued for each of the other
systems evaluated pursuant to GISRA, including three systems that process
classified information.

      The audit took place from June through July 2002 and consisted of
interviews, on-site observations, and reviews of Department and component
documentation to assess WIN’s and MNET’s compliance with GISRA and
related information security policies, procedures, standards, and guidelines.1
We2 used commercial-off-the-shelf and proprietary tools to conduct
vulnerability tests and analysis of significant operating system integrity and
security controls.

       The interviews were conducted using the questionnaire contained in
the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-26, “Security Self-Assessment Guide for Information
Technology Systems.” This questionnaire contains specific control objectives
and suggested techniques against which the security of a system or group of
interconnected systems can be measured. The questionnaire contains 17
areas under 3 general controls (management, operational, and technical).
The areas contain 36 critical elements and 225 supporting security control
objectives and techniques (questions) about the system. The critical
elements are derived primarily from the Office of Management and Budget
(OMB) Circular A-130 and are integral to an effective information technology
(IT) security program. The control objectives and techniques support the
critical elements. If a number of the control objectives and techniques are
not implemented, the critical elements have not been met.

       The independent auditors assessed management, operational, and
technical controls at a high risk to the protection of the WIN and MNET
networks from unauthorized use, loss, or modification. Specifically, we
identified vulnerabilities in 16 of the 17 control areas as indicated in the
chart below:




1
    In a September 1997 audit, report number 97-26, the OIG recommended that the Department
    develop effective computer security program guidance. The Department then revised its policy and
    released DOJ Order 2640.2D in July 2001, which was used in the analysis of this year's review.
2
    In this report, “we” refers to either the OIG or to PwC working under the direction of the OIG.




                                                   - ii -
                                                                        VULNERABILITIES
                          CONTROL AREAS3
                                                                            NOTED
       Management Controls
       1. Risk Management
       2. Review of Security Controls                                               √*
       3. Life Cycle                                                                √*
       4. Authorize Processing
          (Certification and Accreditation)                                         √*
       5. System Security Plan                                                      √*
       Operational Controls
       6. Personnel Security                                                        √*
       7. Physical and Environmental Protection                                     √*
       8. Production, Input/Output Controls                                         √*
       9. Contingency Planning                                                      √*
       10.Hardware and Systems Software Maintenance                                 √*
       11.Data Integrity                                                            √*
       12.Documentation                                                             √*
       13.Security Awareness, Training, and Education                               √*
       14.Incident Response Capability                                              √*
       Technical Controls
       15. Identification and Authentication                                        √*
       16. Logical Access Controls                                                  √*
       17. Audit Trails                                                             √*
      Source: The OIG’s FY 2002 GISRA audit of WIN and MNET.

      √* Significant vulnerability in which risk was noted as high. A high-risk vulnerability is defined
             as one where extremely grave circumstances can occur when a remote or local attacker
             violates the security protection of a system through user or root account access, gaining
             complete control of a system and compromising critical information.


     As a result of the findings identified in this report, we are providing
recommendations for improving WIN and MNET systems to ensure that WIN
and MNET management:

         •    Enforce the USMS policies and procedures developed to identify,
              track, correct, and maintain the corrected status of identified
              vulnerabilities.

         •    Ensure that a system development life cycle (SDLC) methodology is
              documented when planning, implementing, or maintaining a major
              application or general support system.

3
    Control Areas as described in the NIST SP 800-26 “Security Self-Assessment Guide      for Information
    Technology Systems.”



                                                   - iii -
•   Rescind the certification and accreditation and place WIN and MNET
    in an interim approval to operate (IATO) status pending the
    completion, at a minimum, of the security test & evaluation,
    contingency plan, and system security plan. Also, develop a
    corrective action plan establishing a schedule and milestones to
    complete the security test & evaluation, contingency plan and test,
    and system security plan while maintaining the IATO for no longer
    than six months.

•   Modify WIN and MNET system security plans and USMS strategic
    plan to include the "Planning for Security in the Life Cycle" section,
    as described in NIST SP 800-18.

•   Assign a group or person with the responsibility of addressing IT
    security and analyzing those controls that are deemed critical by
    USMS, to ensure MNET meets the requirements set forth in the
    upcoming/current C&A process. Maintain documentation evidencing
    the successful completion of each review and the corrective actions
    taken to address all issues identified. Finally, if the security
    controls surrounding MNET are not strengthened, MNET should be
    removed from production until all critical functions are properly
    secured.

•   Establish procedures to ensure a separation of duties so that
    individuals responsible for developing the system are not tasked
    with either system or security administration.

•   Implement Department’s physical security controls as described in
    DOJ Order 2640.2D policy.

•   Review all world-writeable files and directories. For any files and
    directories not needed for proper functioning of the system, the file
    permission should not be world-writeable. Users’ files and
    directories permission settings should be set in a manner that is
    necessary for the user to fulfill job responsibilities and no more.

•   Ensure that USMS management: (a) defines “umask” settings so
    that only the owner can view or modify files; (b) construct “path”
    variables so that no world-writeable directories are included in the
    path; and (c) ensure that all directories are searched appropriately
    in the “path” variable.




                                - iv -
•   Implement documented procedures for help desk personnel to
    follow when performing their daily responsibilities.

•   Establish documented procedures to control how and when media
    and other types of USMS data are transferred.

•   Complete a contingency plan for MNET and its associated
    applications and conduct a realistic test of the plan and adjust as
    indicated by the results of the test. Once the test results have been
    incorporated into the plan, obtain approval of the plan.

•   Perform backups of the running configuration to the routers’
    onboard memory. All changes made to the configuration should be
    immediately backed up on a separate device. Where appropriate,
    use back up systems to ensure system availability. Cisco hardware
    offers advanced backup capabilities in case of hardware or software
    failure. Mission critical routers (typically core routers) may be good
    candidates to take advantage of Cisco backup capabilities.

•   Remove software not required for business-related functions.

•   Develop policies and procedures on the use of virus detection
    software and intrusion detection software and train individuals who
    will be monitoring the system.

•   Create a system-warning banner. The warning message should be
    reviewed and approved by the USMS General Counsel.

•   Develop policies and procedures for securing Cisco routers.

•   Inquire with USMS General Counsel to determine which segments
    of the proposed Rules of Behavior document are delaying its
    approval, work with USMS General Counsel to establish a set of
    rules, and require all users to read and sign the Rules of Behavior
    document to ensure the users are aware of the contents.

•   Define who in USMS is responsible for incident response.

•   Enforce Department-wide identification and authentication policies
    to ensure that only authorized personnel can login to the system.
    Also, designate a system administrator to ensure accounts do not
    remain inactive on the system and ensure active accounts are
    appropriate.



                                -v-
      •   Enforce Department-wide password policies and procedures and
          install security tools on all servers to enforce restrictions on
          passwords.

      •   Remove accounts that do not require access to a privileged group.

      •   Develop, implement, and monitor policy establishing specific
          security standards and settings for running vulnerable services and
          server configurations.

      •   Require sensitive WIN data be encrypted before it is transferred
          across the network.

      •   Create an appropriate access list for all routers, and set timeout
          values for an unattended console.

      •   Activate Cisco routers’ transmission control protocol (TCP) intercept
          mode and configure routers to allow logging of specific access lists.

      •   Implement and document policies and procedures requiring the
          latest security patches be obtained from the systems’ vendor and
          that the patches are properly installed and configured.

      •   Develop, implement, and monitor documented policy for
          establishing specific password standards for Windows NT servers
          and ensure the policy is compliant with current Department policies.

      •   Implement procedures to ensure that system log messages are
          reviewed on a regular basis with system alerts being sent if
          problems arise.

       Because of the significant vulnerabilities noted in this report, it is
critical that the USMS take immediate corrective action on the above
recommendations. We identified significant vulnerabilities in all but one
control area. Specifically, we noted vulnerabilities in the following areas:
review of security controls, life cycle, authorized processing, system security
plan, personnel security, physical and environmental security, production
and input/output controls, contingency planning, hardware and systems
software maintenance, data integrity, documentation, security awareness,
incident response capability, identification and authentication, logical access
controls, and audit trails. We assessed these vulnerabilities as a high risk to
the protection of WIN and MNET systems from unauthorized use, loss, or
modification. If not corrected, certification and accreditation to operate the



                                      - vi -
WIN and MNET systems should be rescinded until all vulnerabilities are
corrected.

      We concluded that these vulnerabilities occurred because WIN and
MNET management did not fully develop, enforce, or formalize
agency-wide policies in accordance with current Department policies and
procedures. Additionally, we believe the Department did not enforce its
security policies and procedures to ensure that WIN and MNET systems were
protected from unauthorized use, loss, or modification through the
Department’s certification and accreditation process. Furthermore, we
believe many of the vulnerabilities identified during this audit could have
been prevented if WIN and MNET management had followed-up on
corrective actions for similar vulnerabilities identified in previous years.




                                   - vii -
                                    TABLE OF CONTENTS
                                                                                               Page

OBJECTIVE, SCOPE, AND METHODOLOGY.................................................. 1

WARRANT INFORMATION NETWORK (WIN)
AND MARSHAL NETWORK (MNET) ENVIRONMENT....................................... 2

SUMMARY RESULTS OF THE AUDIT........................................................... 3

FINDINGS AND RECOMMENDATIONS ........................................................ 4

I.   Management Controls........................................................................ 4
        A. Review of Security Controls ..................................................... 4
        B. Life Cycle .............................................................................. 6
        C. Authorize Processing (Certification and Accreditation) ................. 7
        D. System Security Plan ............................................................. 9

II. Operational Controls........................................................................     11
        A. Personnel Security ...............................................................        11
        B. Physical and Environmental Protection ....................................                13
        C. Production and Input/Output Controls.....................................                 16
        D. Contingency........................................................................       18
        E. Hardware and System Software Maintanence...........................                       20
        F. Data Integrity .....................................................................      21
        G. Documentation....................................................................         23
        H. Security Awareness, Training, and Education ...........................                   24
        I. Incident Response Capability .................................................            26

III. Technical Controls...........................................................................   27
         A. Identification and Authentication ............................................           27
         B. Logical Access Controls .........................................................        33
         C. Audit Trails .........................................................................   43

CONCLUSION ...................................................................................... 44

APPENDIX I -        NATIONAL INSTITUTE OF STANDARDS AND
                    TECHNOLOGY GENERAL AREAS OF CONTROL..................... 45

APPENDIX II - UNITED STATES MARSHALS RESPONSE TO THE OIG DRAFT
              REPORT ........................................................................ 51

APPENDIX III - OIG, AUDIT DIVISION, ANALYSIS AND SUMMARY
               OF ACTIONS NECESSARY TO CLOSE THE REPORT............... 58
                OBJECTIVE, SCOPE, AND METHODOLOGY

      The fiscal year (FY) 2001 Defense Authorization Act (Public Law 106-
398) includes Title X, subtitle G, “Government Information Security Reform
Act” (GISRA). GISRA became effective on November 29, 2000, and amends
the Paperwork Reduction Act of 1995 by enacting a new subchapter on
"Information Security." It requires federal agencies to:

  •   Have an annual independent evaluation of their information security
      and practices performed.
  •   Ensure information security policies are founded on a continuous risk
      management cycle.
  •   Implement controls that appropriately assess information security
      risks.
  •   Promote continuing awareness of information security risks.
  •   Continually monitor and evaluate information security policies.
  •   Control effectiveness of information security practices.
  •   Provide a risk assessment and report on the security needs of the
      agencies’ systems, and include the report in their budget request to
      the Office of Management and Budget (OMB).

      The objective of the audit was to determine the U.S. Department of
Justice’s (Department) compliance with the requirements of GISRA. The
United States Marshals Service’s (USMS) Warrant Information Network
(WIN) was selected as one of the subset of systems to be tested to
determine the effectiveness of the Department’s overall security program for
FY 2002. WIN is accessed by both USMS district offices and headquarters
users through the Marshal Network (MNET). Because of WIN’s dependence
on MNET, audit work was expanded to include MNET.

       Under the direction of the Office of the Inspector General (OIG), and
in accordance with Government Auditing Standards, PricewaterhouseCoopers
LLP (PwC) performed the audit of WIN and MNET systems. In determining if
the Department is compliant with GISRA requirements, PwC assessed
whether adequate computer security controls existed to protect WIN and
MNET systems from unauthorized use, loss, or modification.

      The audit took place from June through July 2002. In this audit, we
met with USMS officials from the Information Technology Services staff. We
also met with representatives from the Department’s Justice Management
Division and the Chief Information Officer. We reviewed documentation that
included the USMS’s IT documents, organizational structures, OMB GISRA
reporting information, and prior OIG reports to assess the WIN network’s


                                    -1-
compliance with GISRA and related information security policies, procedures,
standards, and guidelines. We performed test work at the USMS
headquarters in Arlington, Virginia.

      The interviews were conducted using the questionnaire contained in
the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-26, “Security Self-Assessment Guide for Information
Technology Systems.” This questionnaire contains specific control objectives
and suggested techniques against which the security of a system or group of
interconnected systems can be measured. The questionnaire contains 17
areas under 3 general controls (management, operational, and technical).
The areas contain 36 critical elements and 225 supporting security control
objectives and techniques (questions) about the system. The critical
elements are derived primarily from OMB Circular A-130 and are integral to
an effective information technology (IT) security program. The control
objectives and techniques support the critical elements. If a number of the
control objectives and techniques are not implemented, the critical elements
have not been met.

      The audit approach was based on the General Accounting Office’s
Federal Information System Controls Audit Manual, the Chief Information
Officer Council Framework, OMB Circular A-130, and guidance established by
NIST. These authorities prescribe a review that evaluates the adequacy of
management, operational, technical controls over control areas listed in
Appendix I.

WIN AND MNET ENVIRONMENT

      WIN contains the warrant, court records, internal correspondence
related to the warrant, and other information on individuals for whom federal
warrants have been issued. WIN is used to track the status of all federal
warrants to aid in the investigations of all federal fugitives. It is also used to
access the National Law Enforcement Telecommunication System (NLETS)
and National Crime Information Center (NCIC) systems to obtain criminal
record information from other federal, state, local and foreign law
enforcement agencies participating in or cooperating with USMS fugitive
investigations and apprehension efforts and to update the respective
systems with new prisoner information.

       WIN is accessed by both district offices and headquarters users
through MNET, the backbone unclassified network for USMS operations.
MNET is a sensitive but unclassified system that provides office automation
tools to USMS personnel in carrying out their worldwide, mission-related


                                      -2-
functions. MNET is accessible from field sites and from certain other federal
agencies and commercial organizations.

SUMMARY RESULTS OF THE AUDIT

      We tested to determine whether adequate computer security controls
existed to protect WIN and MNET from unauthorized use, loss, or
modification. Our testing consisted of assessing management, operational,
and technical controls for 17 critical areas for WIN and MNET. Our testing
disclosed vulnerabilities within 16 of the 17 areas. These vulnerabilities
were identified as high risks to the protection of WIN and MNET. If not
corrected, these security vulnerabilities threaten WIN’s and MNET’s data with
the potential for unauthorized use, loss, or modification.

      We concluded that these vulnerabilities occurred because WIN and
MNET management did not fully develop, enforce, or formalize agency-wide
policy in accordance with current Department policies and procedures.
Additionally, we believe the Department did not enforce its security policies
and procedures to ensure WIN and MNET were protected from unauthorized
use, loss, or modification through its certification and accreditation process.
Furthermore, we believe many of the vulnerabilities identified during this
audit could have been prevented if USMS management had followed-up on
corrective actions for similar vulnerabilities identified in previous years.




                                     -3-
                          FINDINGS AND RECOMMENDATIONS

       Our review disclosed that security controls need improvement to fully
protect WIN and MNET from unauthorized use, loss, or modification. We
found security vulnerabilities in all but one critical control area. Specifically,
vulnerabilities were identified in the following areas: review of security
controls; life cycle; authorize processing; system security plan; personnel
security; physical and environmental protection; production and
input/output controls; contingency planning; hardware and software
maintenance; data integrity; documentation; security awareness, training
and education; incident response capability; identification and
authentication; logical access controls; and audit trails. The vulnerabilities
identified in this report occurred because USMS management did not fully
develop, enforce, or formalize agency-wide policy in accordance with current
Department policies and procedures. Additionally, the Department did not
enforce its security policies and procedures to ensure that WIN and MNET
had been fully secured through its certification and accreditation process.

I.        Management controls. Management controls are techniques and
          concerns that are normally addressed by management in the
          organization's computer security program. In general, they focus on
          the management of the computer security program and the
          management of risk within the organization.

                                                                             Vulnerabilities
                      Management Controls
                                                                                 Noted
         Risk Management
         Review of Security Controls                                                  √*
         Life Cycle                                                                   √*
         Authorize Processing (Certification and Accreditation)                       √*
         System Security Plan                                                         √*
     √* Significant vulnerability in which risk was noted as high. A high-risk vulnerability is defined
          as one where extremely grave circumstances can occur when a remote or local attacker
          violates the security protection of a system through user or root account access, gaining
          complete control of a system and compromising critical information.


      As a result of testing management controls, we confirmed that controls
were adequate for WIN and MNET risk management. However, significant
vulnerabilities were identified within the following management control
areas:

A. Review of Security Controls. Routine evaluations and corrective
   actions on previously identified vulnerabilities are important elements of
   managing system risk. When significant weaknesses are identified, the

                                                   -4-
related risks should be reassessed, appropriate corrective actions taken,
and follow-up monitoring performed to assure that corrective actions are
effective.

Issue: Inappropriate Security Controls

Condition:

Independent reviews are only conducted once every three years. USMS
does not conduct independent reviews when significant system changes
or upgrades are implemented and completed. Additionally, weaknesses
identified in prior reports, such as: “Independent Auditor's Report on
Internal Control, Security Test & Evaluation Report,” and
“PricewaterhouseCoopers Penetration Testing Report” were still present
at the time of our audit.

Cause:

USMS has ineffective procedures for identifying, tracking, and correcting
weaknesses. Additionally, we found that USMS has an inadequate
number of trained IT security personnel on its team to identify and
correct weaknesses in a timely manner.

Criteria:

DOJ Order 2640.2D Chapter 1 Section 11(b), Configuration Management,
states: “Components shall…Document and test all changes before
modifying the accredited system and/or application so that new
vulnerabilities are not introduced into the operational environment.”

DOJ Order 2640.2D Chapter 1 Part 2, Section 7(e), Certification and
Accreditation, states:

"The DAA shall:

•   Evaluate the certification findings and assess vulnerabilities and
    residual risks.

•   Approve corrective action and ensure its implementation."

Risk:

Without prompt management action to identify and correct weaknesses,
WIN and MNET systems remain vulnerable.

                                 -5-
     Recommendation:

        1. We recommend that the Director, USMS:
             a. Conduct independent reviews when significant system
                changes or upgrades are implemented and completed.

                 b. Enhance and enforce USMS policies and procedures for
                    identifying, tracking, and correcting vulnerabilities.
                    Additionally, maintain a status report on corrective actions
                    performed.

                 c. Increase the number of trained IT security personnel in
                    order to identify and correct system weaknesses in a
                    timely manner.

B.   Life Cycle. Like other aspects of an IT system, security is best
     managed if planned for the entire IT system life cycle. There are many
     models for the IT system life cycle, but most contain five basic phases:
     initiation, development/acquisition, implementation, operation, and
     disposal. Assessing a system’s life cycle involves determining whether
     the following critical items are established: a system development life
     cycle methodology and system change controls that track a program’s
     progress through testing to final approval.

     Issue: Inadequate Systems Development

     Condition:

     The USMS currently does not have a documented and approved system
     development life cycle (SDLC) for WIN and MNET systems.

     Cause:

     USMS management is not committed to providing adequate resources to
     establish a formal documented methodology that describes how USMS
     personnel should develop, implement, and maintain systems.

     Criteria:

     DOJ Order 2640.2D Chapter 1, Part 6, Information Technology Security
     Life Cycle, states: "Components shall develop and implement a risk-
     based security process to provide security throughout the life cycle of all
     systems supporting their operations and assets."


                                       -6-
    Risk:

    The absence of a documented and approved SDLC can lead to numerous
    complications in the development process that can cause system
    failures, system vulnerabilities and increases in project cost. In
    addition, inadequate software testing and planning can allow the system
    to enter production with major system flaws while also causing the
    project to go over budget.

    Recommendation:

        2. We recommend that the Director, USMS, ensure that a
           documented and approved SDLC methodology is applied when
           planning, implementing, or maintaining a major applications or
           general support systems.

C. Authorize Processing (Certification and Accreditation). Authorize
   processing provides a form of assurance of the security of the system.
   Computer security assurance is the degree of confidence one has that
   the security measures, both technical and operational, work as intended
   to protect the system and the information it processes. Certification is a
   formal process for testing components or systems against a specified set
   of security requirements while accreditation is a management official's
   formal acceptance of the adequacy of a system's security. Computer
   security accreditation forces managers and technical staff to work
   together to find workable, cost-effective solutions given security needs,
   technical constraints, operational constraints, and mission or business
   requirements.

   Issue: Inadequate Documentation to Support Certification and
   Accreditation

   Condition:

   Several significant documents that support the certification and
   accreditation (C&A) of WIN and MNET systems are not complete. These
   documents include the systems’ contingency plan, security test and
   evaluation (ST&E), and security plan. Therefore, the C&A requirements
   are not adequately fulfilled.




                                    -7-
Cause:

According to USMS, there is an inadequate level of USMS resources
(e.g., financial, human) to create these documents. As a result, the
USMS individuals responsible for system accreditation are willing to
accept high levels of risk.

Criteria:

DOJ Order 2640.D Chapter 1 Section 7, Certification and Accreditation,
“Components shall ensure the certification and accreditation of all
systems under their operational control.

  a. All systems shall be certified and accredited prior to being placed
     into operation. Therefore, until an IT system is certified and
     accredited, no operational data can be used for any purpose,
     including testing in pilot systems if live data is used or if the pilot
     system is connected to a department network.

  b. Each component shall designate a Certification Official for each
     system.

  c. For each classified and sensitive but unclassified (SBU) system the
     Certification Official shall:

     (1)    Ensure a system security plan is prepared and maintained
            throughout the system life cycle.
     (2)    Ensure a risk analysis is performed to identify security risks,
            determine their magnitude, and identify areas needing
            safeguards.
     (3)    Ensure a system test and evaluation is conducted and the
            results of such tests are documented.
     (4)    Ensure Rules of Behavior and security procedures/guides are
            developed.
     (5)    Ensure a contingency plan is prepared and tested.
     (6)    Prepare the summary of compliance with the security
            requirements and the statement of residual risk.
     (7)    Prepare a security evaluation report on the status of the
            certification and recommend to the Designated Approving
            Authority (DAA) whether or not to accredit the system based
            on documented residual risks.




                                   -8-
           (8)   Prepare the accreditation grant for the DAA's signature.
           (9)   Submit the certification and accreditation package for
                 classified systems to the Security and Emergency Planning
                 Staff, JMD, and for SBU systems to the Information
                 Management and Security Office (IMSO), JMD, for
                 independent verification and validation.”

   Risk:

   Allowing the system to be certified and accredited without adequate
   documentation of the risks of the system, system contingency plan, and
   security controls and with vulnerabilities present within the system
   increases the likelihood that the true security state of the system will be
   misconstrued and misrepresented.

   Recommendation:

        3. We recommend that the Director, USMS:

                 a. Rescind the C&A and place WIN and MNET systems in an
                    IATO status for no longer than six months while
                    completing, at a minimum, the systems’ ST&E,
                    contingency plan, and security plan.

                 b. Develop a corrective action plan establishing a schedule
                    and milestones to complete the ST&E, contingency plan
                    (including test of the contingency plan), and security plan
                    within the six-month IATO period.

D. System Security Plans. A system security plan provides an overview
   of the security requirements of the system and describe the controls in
   place or planned for meeting those requirements. The plan delineates
   responsibilities and expected behavior of all individuals who access the
   system.

   Issue: Inadequate System Security Plan

   Condition:

   We found the security plan for WIN and MNET systems to be inadequate.
   The previously approved security plan for MNET does not include the
   security plan for WIN. Additionally, the MNET security plan is outdated
   because the system’s interim authority has expired and the security plan

                                      -9-
no longer meets the requirements set forth in that authority.
Furthermore, USMS has no current strategic plan or similar document
that discusses security plans at the component level.

Cause:

We found that USMS management is not committed to providing
adequate resources to establish a formal security position that focuses
on USMS security and is accountable for security plans. Additionally, the
USMS security team has an inadequate number of trained security
personnel to address corrective actions in a timely manner.

Criteria:

NIST SP 800-18, Guide for Developing Security Plans for Information
Technology Systems, requires that all security plans for major systems
or general support systems contain a section describing "Planning for
Security in the Life Cycle.”

Further, the system is governed by a condition in the MNET Accreditation
Statement that states: "Based on my authority and judgment, and
weighing the residual risks against operational requirements, I [the
Designated Approving Authority (USMS’s CIO)] authorize the interim
operation of the USMS MNET Headquarters for six months to provide an
opportunity for satisfactory resolution of the issues delineated in the
SSAA [System Security Authorization Agreement] Appendix H. When
these issues have been satisfactorily resolved, the USMS MNET
Headquarters will be granted a full accreditation."

Risk:

Failing to mitigate risks identified during a C&A process that resulted in
"an interim approval to operate,” could potentially require the system to
be taken out of production.

Recommendation:

     4. We recommend that the Director, USMS, ensure that USMS
        management:

            a. Modify the WIN system security plan, USMS strategic plan,
               to include the "Planning for Security in the Life Cycle"
               section, as described in NIST SP 800-18.


                                 - 10 -
                   b. Assign a group (or person) with the responsibility for
                      correcting security vulnerabilities and analyzing those
                      controls that are deemed critical by USMS to ensure WIN
                      and MNET systems meet the requirements set forth in the
                      upcoming/current C&A process and documenting all actions
                      taken. Finally, if the security controls surrounding WIN and
                      MNET are not strengthened, remove WIN and MNET from
                      production until all critical functions are adequately secured.

II.      Operational Controls. Operational controls address security controls
         that are implemented and executed by people. These controls are put
         in place to improve the security of a particular system. They often
         require technical or specialized expertise and rely upon management
         activities as well as technical controls.

                                                                           Vulnerabilities
                     Operational Controls
                                                                               Noted
        Personnel Security                                                          √*
        Physical and Environmental Protection                                       √*
        Production, Input/Output Controls                                           √*
        Contingency Planning                                                        √*
        Hardware and Systems Software Maintenance                                   √*
        Data Integrity                                                              √*
        Documentation                                                               √*
        Security Awareness, Training, and Education                                 √*
        Incident Response Capability                                                √*
      √* Significant vulnerability in which risk was noted as high. A high-risk vulnerability is defined
           as one where extremely grave circumstances can occur when a remote or local attacker
           violates the security protection of a system through user or root account access, gaining
           complete control of a system and compromising critical information.


       Our testing identified vulnerabilities within all nine critical areas of
operational controls. The specific details of the identified vulnerabilities are
listed below.

A. Personnel Security. Many important issues in computer security
   involve human users, designers, implementers, and managers. A broad
   range of security issues relates to how these individuals interact with
   computers and the access and authorities they need to do their jobs.




                                                 - 11 -
Issue: Inadequate Separation of Duties

Condition:

WIN system security administration responsibilities are not adequately
separated to ensure least privilege and individual accountability. The
same individual is responsible for WIN application development, system
administration, and system security.

Cause:

According to the USMS, there is an inadequate number of trained IT
security personnel on the USMS security team to assume IT security
administration responsibilities.

Criteria:

DOJ Order 2640.2D Chapter 2, Section 18 (l)(a) and (c), states:
“Department IT systems shall have assignment and segregation of
system responsibilities defined and documented…At a minimum, there
shall be a clearly defined role for a security administrator and a system
administrator.” Additionally, “Controls [compliant with Department
access control policies] shall be in place to ensure that the user [and
administrators] has access to only the resources required to accomplish
their duties and no more.”

Risk:

Assigning the same individual to be responsible for development, system
administration, and security administration grants a single individual the
ability to change critical resources without authorization or detection.
Additionally, this condition could potentially allow practices inconsistent
with management intentions, requirements, acceptable security
standards, and for segregation of duties to be compromised; thus,
creating unnecessary risk.

Recommendation:

     5. We recommend that the Director, USMS, establish procedures to
        ensure a separation of duties between individuals responsible for
        developing the system and those responsible for system or
        security administration.



                                - 12 -
B. Physical and Environmental Protection. Physical security and
   environmental security are the measures taken to protect systems,
   buildings, and related supporting infrastructures against threats
   associated with their physical environment.

   Issue: Inadequate Physical and Environmental Controls

   Condition:

   We found that physical and environmental controls surrounding the
   USMS computer room and building are inadequate. Backup tape rotation
   procedures, emergency exit and re-entry procedures, and fire and flood
   related controls are also inadequate. In addition, visitor access is not
   documented.

   Cause:

   This occurred because USMS management was not enforcing proper
   physical security.

   Criteria:

   DOJ Order 2640.2D, states: "Department IT systems shall be physically
   protected commensurate with the highest classification or sensitivity of
   the information. Department IT systems shall be environmentally
   protected, and the means for providing this protection shall be
   documented. Facilities supporting large scale IT operations, such as
   enterprise servers and telecommunication facilities, require consideration
   of additional environmental and physical controls as determined by a risk
   analysis."

   Risk:

   Insufficient physical and environmental controls can lead directly to
   major security incidents, such as theft and/or destruction, or to damage
   from accidental, natural or terrorist causes.




                                   - 13 -
Recommendation:

    6. We recommend that the Director, USMS, implement
       Department’s physical security controls as described in DOJ
       Order 2640.2D.

Issue: World-Writeable Files

Condition:

We found two UNIX servers had 45,136 world-writeable files and
directories including two files that are critical to system operation. Files
and directories that are world-writeable allow any user on the system the
ability to modify or delete their contents.

Cause:

Many of the world-writeable files and directories appeared to exist due to
improper configuration of WIN on the part of USMS management.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
"Enable the use of resources such as data and programs necessary to
fulfill job responsibilities and no more."

Risk:

Improper configuration of home files directories could potentially allow a
user to obtain the level of access of another identity on the server. If
the compromise is business-critical, then this vulnerability is high-risk
and could be exploited to gain privileged access on the server.

Recommendation:

    7. We recommend that the Director, USMS, ensure that USMS
       management review all world-writeable files and directories. For
       any files and directories not needed for proper functioning of the
       system, the file permission should not be world-writeable.
       Users’ files and directories permission settings should be set in a
       manner that is necessary for the user to fulfill job responsibilities
       and no more.


                                 - 14 -
Issue: User Parameter Settings

Condition:

We found 16 files on 2 UNIX servers that contained improperly set
“umask” values and 27 files on 2 UNIX servers that had insecure “path”
variables. The "umask" variable is used for default file-creation
permissions. Unsafe "umask" settings allow users, other than the owner
of the file, read and or write permissions to files. This increases the risk
that unauthorized users view, delete, or modify sensitive or proprietary
information.

Cause:

These conditions appear to exist due to the USMS’s improper
configuration of the “path” variables and “umask” values.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16 (a) and (f), Access Control,
states that the system must: “Enable the use of resources such as data
and programs necessary to fulfill job responsibilities and no more
…Protect the system, its data and applications, from unauthorized
disclosure, modification, or erasure."

Risk:

Insecure PATH variables increase the risk that users will be deceived by
common system commands such as list files, which are executed instead
of the system list files. For example, an unauthorized user could write a
program that performs certain functions and call the program list files.
When an authorized user invokes the list files command, the bogus list
files program would be executed.

Recommendation:

     8. We recommend that the Director, USMS, ensure that USMS
        management:

         a. Define the “umask” settings so that only the owner can view
            or modify files.




                                 - 15 -
            b. Construct “path” variables so that no world-writeable
               directories are included in the path.

            c. Ensure that all directories are searched appropriately in the
               “path” variable.

C. Production and Input/Output Controls. There are many aspects to
   IT operations support. Topics range from a user help desk to procedures
   for storing, handling, and destroying media.

   Issue: Help Desk Policies and Procedures Do Not Exist

   Condition:

   A system help desk is designed to offer advice and respond to system
   security incidents in a timely manner, and assist users with the operation
   of the system and applications (including the re-setting of user
   passwords). At the time of our audit, USMS did not implement adequate
   security controls pertaining to its help desk operation. Specifically, we
   noted that USMS do not have documented procedures for help desk
   personnel to follow when assisting WIN and MNET users. Additionally, no
   controls exist to ensure that users’ account passwords are properly reset
   when accounts are locked, or when users forget their passwords.

   Cause:

   According to USMS personnel, the shortage of personnel on the USMS IT
   security team has resulted in an inability to handle the associated
   responsibilities and daily tasks required to maintain a secure computing
   environment and help desk operations that are compliant with
   Department policy.

   Criteria:

   NIST SP 800.18, Section 5.MA.3, states: "...provide a synopsis of the
   procedures in place that support the operations of the application such
   as using questions like, ‘Is there a help desk or group that offers advice
   and can respond to security incidents in a timely manner? Are there
   procedures in place documenting how to recognize, handle, and report
   incidents and/or problems...’"




                                    - 16 -
Risk:

Without documented help desk policies and procedures, unauthorized
individuals could potentially exploit the help desk by fraudulently
presenting themselves as an authorized user, which could allow them to
change passwords and obtain unauthorized access. Unauthorized
individuals could potentially gain access to sensitive USMS data, allowing
them to make personal gains based on the type of data.


Recommendation:

    9. We recommend that the Director, USMS, ensure that USMS
       management implement documented procedures for help desk
       personnel to follow when performing their daily responsibilities.

Issue: Media Controls

Condition:

No documented process has been established to ensure only authorized
individuals can pick up, receive, or deliver input/output information and
media. In addition, no formal process has been established to ensure
adequate audit trails are maintained for inventory management of such
media.

Cause:

According to USMS personnel there are inadequate numbers of trained
security personnel on the USMS security team to handle the associated
responsibilities.

Criteria:

USMS Manual Section 9.2-2, Limited Official Use Information,
states: "Limited Official Use (LOU) information used by USMS must
be maintained, distributed, secured and disposed of in a manner
that will protect the information against unauthorized disclosure.
This section sets forth the requirements for safeguarding
unclassified but sensitive information."




                                - 17 -
DOJ Order 2640.2D Section 19, Accountability and Audit Trails,
states: “…Maintain an audit trail of activity sufficient to reconstruct
security relevant events.”

Risk:

Without documented procedures for media security controls,
unauthorized individuals could potentially obtain access to sensitive
USMS data. This condition could potentially allow practices inconsistent
with management intentions, requirements, and acceptable security
standards.

Recommendation:

   10. We recommend that the Director, USMS, establish documented
       procedures to control how and when media and other types of
       USMS data are transferred. An audit trail should also be
       maintained to evidence such events.

D. Contingency Planning. Contingency planning ensures continued
operations by minimizing the risk of events that could disrupt normal
operations and having an approach in place to respond to those events
should they occur.

Issue: No Documented Contingency Plan Exists

Condition:

Contingency plans were not documented or tested for the MNET and WIN
systems.

Cause:

According to USMS, there is a shortage of trained security personnel on
the USMS security team resulting in the inability to develop a
contingency plan.

Criteria:

Section 9.4-10 Contingency Planning, of the USMS Manual states,
"Contingency planning is required to ensure continuity of ADP operations
to the greatest degree possible of data processed or stored by the ADP


                                  - 18 -
   systems. Contingency plans will be generated for each ADP facility and
   will be submitted to the Computer Systems Program Manager for review
   and approval upon generation. Approved contingency plans will be
   tested by personnel from each ADP facility at least once annually to
   ensure adequacy of scope and operation. Any deficiencies noted by the
   test will result in a revision to the contingency plan and resubmission to
   the Computer Systems Program Manager."

   Risk:

   Without a comprehensive, tested contingency plan, USMS management
   cannot be assured of the ability to restore critical systems in a timely
   fashion following a disaster or significant service interruption.

   Recommendation:

      11. We recommend that the Director, USMS, ensure that USMS
          management complete a contingency plan for MNET and its
          associated applications and conduct a realistic test of the plan
          and adjust as indicated by the results of the test. Once the test
          results have been incorporated into the plan, obtain approval of
          the plan.

Issue: Cisco Router Fault Tolerance is Inadequate

   Condition:

   We found fault tolerance controls are inadequate on the Cisco router.
   Backup configuration files are stored inadequately and the Cisco router
   does not take advantage of backup capabilities.

   Cause:

   According to USMS personnel, these conditions are due to lack of
   additional hardware for fault tolerance purposes.

   Criteria:

   DOJ Order 2640.2D Chapter 2, Security Program Management
   Contingency Planning/Business Resumption Planning, states:
   "Components shall plan for how they will perform their missions in the
   event their IT systems are unavailable and how they will recover these
   IT systems in the event of loss or failure."


                                   - 19 -
   Risk:

   If the running configuration becomes corrupt, the router will boot with
   the startup configuration stored in its memory. It is essential that
   configuration is kept up-to-date.

Recommendation:

     12. We recommend that the Director, USMS, ensure that USMS
         management performs backups of the running configuration to the
         routers’ onboard memory. All changes made to the configuration
         should be immediately backed up on a separate device. Where
         appropriate, use backup systems to ensure system availability.
         Cisco hardware offers advanced backup capabilities in case of
         hardware or software failure. Mission critical routers (typically core
         routers) may be good candidates to take advantage of the Cisco
         backup capabilities.

E. Hardware & Software Maintenance. These are controls used to
   monitor the installation of, and updates to, hardware and software to
   ensure that the system functions as expected and that a historical record
   is maintained of changes.

Issue: System Software

   Condition:

   The winsvr server contains a compiler, which does not support a
   business need.

   Cause:

   This condition appears to exist due to USMS not knowing the software
   was on the system.

   Criteria:

   USMS Security Policy and Procedures Manual - Volume IX Section 9.4-
   19, System Software, states: "Software which is not used for official
   USMS operations shall not be loaded onto USMS ADP systems and any
   such software already present on ADP systems upon receipt from a
   vendor or manufacturer shall be purged from the system upon receipt."


                                    - 20 -
     Risk:

     Inappropriate use of software on the server might lead to potential risks
     including, but no limited to, service disruption and legal issues.

     Recommendation:

           13. We recommend that the Director, USMS, ensure that USMS
               management remove any software not required for business-
               related functions.

F.    Data integrity. Data integrity controls are used to protect data from
     accidental or malicious alteration or destruction and to provide assurance
     to the user that the information meets expectations about its quality and
     integrity.

     Issue: Inadequate Data Integrity, Validation Controls, and Virus
     Detection Controls

     Condition:

     Although virus detection software is installed on MNET workstations,
     virus detection and elimination software are not installed on the
     application servers. Additionally, workstation virus detection software is
     not updated in a timely manner.

     Cause:

     A shortage of trained security personnel on the USMS security team
     resulted in the USMS not being able to install and update virus detection
     software for all of its systems.

     Criteria:

     DOJ Order 2640.2D, Chapter 3 Section 35, states: "All Department IT
     systems shall employ virus protection software. Anti-virus software
     shall:

       •     Detect and eliminate viruses on computer workstations, laptops,
             servers, and simple mail transfer protocol gateways.




                                      - 21 -
  •     Be enabled on workstations and servers at start-up and employ
        resident scanning.

  •     On servers, update virus signature files immediately, or as soon as
        possible, with each new release."

Risk:

The lack of virus detection software leaves the system vulnerable to
common types of virus and possibly corruption or disruption of system
services.

Recommendation:

      14. We recommend that the Director, USMS, ensure that USMS
          management develops policies and procedures to ensure the
          installation and use of virus detection software and intrusion
          detection software and train individuals to use it properly.

Issue: Warning Banner

Condition:

The winsrv server does not display a system-warning banner when users
log onto the server.

Cause:

We concluded that USMS personnel were not aware that there was a
requirement for a system-warning banner.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 18, Password Management,
states: “All Department IT systems shall implement a system banner
that provides warnings: to employees that accessing the system
constitutes consent to system monitoring for law enforcement and other
purposes; and to unauthorized users that their use of the system may
subject them to criminal prosecution and/or criminal or civil penalties.”




                                  - 22 -
    NIST SP 800-14, Generally Accepted Principles and Practices for
    Securing Information Technology Systems, Section 3.3.1, states:
    “The many different components of risk should be examined. This
    examination normally includes gathering data about the threatened area
    and synthesizing and analyzing the information to make it useful. The
    types of areas are...Vulnerability Analysis. A vulnerability is a condition
    or weakness in (or absence of) security procedures, technical controls,
    physical controls, or other controls that could be exploited by a threat."

    Risk:

    The winsrv server provides information to users before they are
    authenticated to the server. It is important to inform users of the
    sensitive nature of the resources they are using. In attempting to gain
    useful information for compromising the server, an unauthorized user
    could use this information. The USMS’s ability to prosecute criminals
    may be undercut by its inability to prove they abused systems knowing
    they were to be used only for official purposes. It is also a good
    practice to proactively inform users they are subject to audit.

    Recommendation:

       15. We recommend that the Director, USMS, ensure that USMS
           management creates a system-warning banner. The warning
           message should be reviewed and approved by the USMS’s
           General Counsel.

G. Documentation. Documentation refers to the descriptions of the
   hardware, software, policies, standards, procedures, and approvals
   related to the system and that formalize the system’s security controls.
   Assessing documentation involves evaluating the USMS’s efforts to
   complete the following critical requirements:

        o There is sufficient documentation that explains how
          software/hardware is to be used.
        o There are documented formal security and operational
          procedures.




                                    - 23 -
    Issue: Cisco Router Policies

    Condition:

    We found no documented policies for securing existing Cisco routers and
    implementing future routers.

    Cause:

    We concluded that USMS management has not placed a high priority on
    documenting router policies.

    Criteria:

    DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
    "Protect the system, its data and applications, from unauthorized
    disclosure, modification, or erasure."

    Risk:

    Proper security policies and operating procedures for routers and
    supporting devices are essential for maintaining the networking
    environment

    Recommendation:

        16. We recommend that the Director, USMS, ensure that USMS
            develop, as well as implement, policies and procedures for
            securing Cisco routers.

H. Security Awareness, Training, and Education. People are a crucial
   factor in ensuring the security of computer systems and valuable
   information resources. Security awareness, training, and education
   enhance security by improving awareness of the need to protect system
   resources. Additionally, training develops skills and knowledge so
   computer users can perform their jobs more securely and build in-depth
   knowledge.




                                   - 24 -
Issue: No "Rules of Behavior" Document Has Been Approved

Condition:

No Rules of Behavior document has been approved by USMS to provide
guidance on how to use USMS systems. In addition, users have not
been given adequate training and education regarding rules of behavior.

Cause:

USMS developed a Rules of Behavior document that contains relevant
information for users to follow while using USMS systems. However,
USMS requires the General Counsel approval before distribution to users.
Unfortunately, the General Counsel has failed to return or validate the
proposed Rules of Behavior in a timely manner, preventing the
distribution of this document.

Criteria:

DOJ Order 2640.2D, Chapter 1 Section 7, states: "For each classified and
SBU system the Certification Official shall...Ensure Rules of Behavior and
security procedures/guides are developed."

Risk:

The lack of a Rules of Behavior document could potentially have several
negative effects. For example, users could choose an action that violates
the Department’s requirements inadvertently or out of ignorance. Also,
USMS could potentially be unable to hold certain users accountable for
their actions given the lack of express instructions describing appropriate
activities.

Recommendation:

   17. We recommend that the Director, USMS, ensure USMS
       management:

             a. Inquire with the General Counsel to determine which
                segments of the proposed Rules of Behavior document
                are delaying the approval and work with the General
                Counsel to establish a set of rules that meets
                Department’s requirements.


                                - 25 -
               b. Require all users, including both government and
                  contract employees, to read and sign the Rules of
                  Behavior document to ensure the users are aware of the
                  contents.

I. Incident Response Capability. Computer security incidents are an
   adverse event in a computer system or network. Such incidents are
   becoming more common and their impact can be far-reaching.

  Issue: Formal Incident Response Procedures Have Not Been
  Established

  Condition:

  We found that USMS has no written incident response procedures.

  Cause:

  According to USMS personnel, there is a shortage of trained IT security
  personnel on the USMS security team, preventing USMS from establishing
  written incident response policies and procedures.

  Criteria:

  DOJ Order 2640.2D, Chapter 1 Section 5, states: "For SBU systems,
  security incidents that meet the criteria established by the Department of
  Justice Computer Emergency Response Team (DOJCERT) shall be
  reported by the component to DOJCERT within time frames established by
  DOJCERT."

  Risk:

  Without a clear definition of responsibilities for incident response, the
  likelihood that an incident will not be handled properly and in accordance
  with USMS and Department procedures is increased, which could increase
  the harm to the system or decrease the effectiveness of a response.

  Recommendation:

       18. We recommend that the Director, USMS, ensure that USMS
           management define responsibilities for incident response, and



                                  - 26 -
                  coordinate and complete an agreement that clearly states who
                  is responsible for incident response for USMS.

III.    TECHNICAL CONTROLS. Technical controls focus on security
        controls that the computer system executes and depend upon the
        proper functioning of the system to be effective. Technical controls
        also require significant operational considerations and should be
        consistent with the management of security within the organization.

       We assessed the effectiveness of operational and technical controls on
WIN and MNET systems by using commercial off-the-shelf and proprietary
software to conduct penetration testing on the system. A penetration test is
a security test in which evaluators attempt to access sensitive information
on the system to determine whether appropriate security controls are in
place.

                                                                  Vulnerabilities
              Technical Controls
                                                                      Noted
    Identification and Authentication                                      √*
    Logical Access Controls                                                √*
    Audit Trails                                                           √*
 √* Significant vulnerability in which risk was noted as high. A high-risk vulnerability is defined
       as one where extremely grave circumstances can occur when a remote or local attacker
       violates the security protection of a system through user or root account access, gaining
       complete control of a system and compromising critical information.


   As a result of testing USMS technical controls, we confirmed that controls
were not adequate.

A. Identification and Authentication. Identification and authentication
   is a technical measure that prevents unauthorized people (or
   unauthorized processes) from entering an IT system. Access control
   usually requires that the system be able to identify and differentiate
   among users.

    Issue: User Account Management Is Improperly Configured

    Condition:
          •   Two out of 144 accounts on winsrv do not have a valid business
              need.

          •   Duplicate root-equivalent accounts (both have a user identification
              (UID) of 0) exist on hq001.


                                                - 27 -
   •   Users are not required to log in as unprivileged users from any
       terminal, except the console, on winsrv and hq001.

   •   Users who must access a shared account, such as root, are not
       required to first log in with an individual account and then be
       switched to the shared account on winsrv and hq001.

   •   No formal process has been established by USMS to describe
       authorized users and their associated access privileges.

Cause:

   •   The accounts that do not have a valid business need appear to be
       unnecessary default accounts that were never removed.

   •   The duplicate root-equivalent accounts appear to exist only for the
       matter of convenience.

   •   Users are not required to log in as unprivileged users from other
       servers because of the convenience.

   •   Users who must access a shared account (such as root) are not
       being required to first log in with an individual account and then
       be switched to root because of the convenience.

   •   No formal process has been established by USMS to describe
       authorized users and their associated access privileges because
       USMS currently does not assign the responsibility of security
       (and/or user management) to a specific individual who has the
       resources and experience to properly secure this environment.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states that the
system must: "Enable the use of resources such as data and programs
necessary to fulfill job responsibilities and no more."

DOJ Order 2640.2D, Identification And Authentication, states: "No later
than February, 2003, secure privileged accounts by using authentication
technology stronger than that which is based only on a UserID and
password."




                                 - 28 -
USMS Security Policy and Procedures Manual - Volume IX Section 9, ADP
System User Access Authentication, states: “Each user will have a unique
user identification and password.”

Risk:

Providing access on the server to users without a business need
significantly increases security risks. Additionally, duplicate user
identifications increase the risk that unauthorized users will modify or
delete files created by another user, and jeopardize accountability.
Furthermore, duplicate root-equivalent accounts increase the risk that
users have system access privileges that are not required for their job
functions. Furthermore, unauthorized users who target root-equivalent
accounts have multiple opportunities to gain root access.

Allowing users to log into the system directly as root from any host on
the network increases the risk that an unauthorized user will gain
privileged access to the system. If shared accounts are logged into
directly, then accountability is lost. Allowing inactive accounts to remain
on the system could potentially give unauthorized users a vehicle or
target for gaining unauthorized access to sensitive system resources.

Recommendation:

     19. We recommend that the Director, USMS, ensure that USMS
         management:

             a. Enforce Department-wide identification and
                authentication policies and ensure that only authorized
                personnel can login to the system.

             b. Establish a system administrator to ensure accounts do
                not remain inactive on the system and ensure active
                accounts are appropriate.

Issue: Password Controls are inadequate

Condition:

In the USMS’s “PwC Penetration Testing Vulnerability Report,” dated
June 19, 2000, it was disclosed that USMS’s UNIX and Novell servers had
weak passwords (UNIX Finding 1, UNIX Finding 5 and Novell Finding 1).



                                 - 29 -
At the time of our audit, we identified the following related weaknesses:

•   USMS Security Policy and Procedures Manual - Volume IX Section 9,
    ADP System User Access Authentication, states: “Passwords shall be
    six alphanumeric characters in length…,” which is in violation of
    current Department policy.

•   Four out of 172 accounts on two UNIX servers had passwords equal
    to the users’ names.

•   Ninety-nine out of 154 accounts on one UNIX server had the same
    password.

•   One UNIX server had the maximum password age set at 99,999
    days.

•   One UNIX server had two files that contain passwords in clear text.

•   Thirty-nine accounts on five Novell servers have a null password.

Cause:

•   USMS passwords policy conflicts with Department policy because
    USMS has not reviewed and updated the policy to ensure compliance
    with the Department’s requirement.

•   Accounts with passwords that are equal to the users’ name exist
    because initial default passwords have not been changed.

•   The 99 accounts that have the same passwords are used by WIN
    administrators and have been assigned the same password as a
    matter of convenience.

•   The password age set at 99,999 days is due to a misconfiguration of
    the UNIX server on the behalf of USMS.

•   The two files with passwords in clear text are used for automatic login
    for such services as file transfer protocols.

•   The cause of all of the Novell accounts with null passwords appears to
    be an oversight on the behalf of USMS.




                                 - 30 -
Criteria:

DOJ Order 2640.2D, Chapter 2 Section 18(b)(1), Password Management,
states: “Department IT systems that use passwords as the means for
authentication shall implement…An eight-character password composed
of at least three of the following: English uppercase, English lower case,
numerics, special characters.”

USMS Security Policy and Procedures Manual - Volume IX
Section 9, ADP System User Access Authentication, states: "... each user
will have a unique user identification and password."
DOJ Order 2640.2D, Chapter 2 Section 18(b)(3) and (4), Password
Management, states: “Limit password lifetime to a maximum of 90
days,” and "Prevent the display of a clear text password.”

Risk:

Inconsistent policies can lead to security weaknesses. In this case, the
USMS policy permits weaker passwords than the Department’s policy
allows.

Easy-to-guess passwords increase the chances that an intruder can gain
access to the system or represent him or herself as a valid user. This
was proven by our ability to gain root access on one UNIX server using
the default password of a UNIX account. Furthermore, having the same
password for multiple accounts increases the chance that users can log
in with a different account and thus masquerade their identity.

Account passwords that are not changed with a scheduled frequency
increase the possibility of compromise and unauthorized use of the
account by an intruder representing him or herself as a valid user.

The existence of reference files or scripts with unencrypted passwords
increases the risk that unauthorized users will gain access to user
accounts on the system.

Users without passwords increase the risk that unauthorized users will
gain access to systems and access data and system configuration files.




                                - 31 -
Recommendation:

  20. We recommend that the Director, USMS:

             a. Review and update its current policies so that they are in
                compliance with the Department’s policies.

             b. Enforce Department-wide password policies and
                procedures and install security tools on all servers to
                enforce restrictions on passwords.


Issue: Accounts and Privileged Groups

Condition:

On the hq001 server, 2 out of 177 accounts are inappropriately assigned
to privileged groups. Users listed in privileged groups have access to
group files and directories owned by the privileged group. This increases
the risk that sensitive system configuration files could be changed or
deleted.

Cause:

This condition exists due to a misconfiguration on the part of USMS.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
“Enable the use of resources such as data and programs necessary to
fulfill job responsibilities and no more.”

Risk:

Users listed in privileged groups have access to group files and
directories owned by the privileged group. This increases the risk that
sensitive system configuration files could be changed or deleted.

Recommendation:

  21. We recommend that the Director, USMS, ensure that USMS
      management delete accounts that do not require access to a
      privileged group.


                                 - 32 -
B. Logical Access Controls. Logical access controls are the system-based
   mechanisms used to designate who or what is to have access to a specific
   system resource and the type of transactions and functions that are
   permitted.

   Issue: Logical Access Controls

   Condition:

   The following risky services are found to be running on WIN and MNET
   systems:

     •   “rusers” (found on one server) – “rusers” provides information
         about users on the host.

     •   Telnet (found on 16 servers) – allows userid and password
         information to pass over the network as clear text.

     •   Berkley r-services (rexec, rlogin, rsh) and configuration files
         (/etc/hosts.equiv) (found on 14 servers) – allow users to
         log in or execute commands from a trusted machine without
         re-authenticating.

     •   .rhosts (found on two servers) – individual .rhost files (in
         conjunction with r-services), allow users to log in or execute
         commands from a trusted machine with out re-authenticating.

     •   Sendmail (vrfy and expn commands)(found on six servers) –
         provides email transport.

    The following Windows NT server configurations were set improperly in
    all Windows NT Primary Domain Controllers (PDC) servers accessed:

     •   Five allow “anonymous” connections to gather user, group, share,
         and policy information.

     •   Five had no account lockout, including the administrator account.

     •   Five did not have the auditing feature enabled. Auditing is critical
         for preventing and monitoring unauthorized access to the Windows
         NT environment.




                                    - 33 -
 •   Seven servers has “finger daemon,” which gives out information
     including username, login status, and last login time.

Similar conditions relating to rusers, telnet, Berkley r-services, vrfy and
expn, finger, and other services were also noted in the following prior-
year findings (USMS PwC Penetration Testing Vulnerability Report, dated
June 2000, Finding numbers: 2, 4, 6, 7, 10, 12, 14, and 15.)

Cause:

 •   Rusers are enabled by default.

 •   Telnet offers a major convenience for users.

 •   The Berkley r-services offer a convenience to users.

 •   The vrfy and expn sendmail commands are enabled by default.

 •   The finger command is enabled by default.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
“Protect the system, its data and applications, from unauthorized
disclosure, modification, or erasure.”

Risk:

 •   Rusers (found on one server) – Rusers provides potentially enticing
     information on users on the host. It provides information on how
     busy the machine is and on login accounts. This is information an
     intruder can use in an attack. A scanner or attacker in a brute-
     force attack can then use the account information.

 •   Telnet (found on 16 servers) – allows userid and password
     information to pass over the network in the clear. Any
     unauthorized user on the network can sniff out this information and
     log into the system as that user.

 •   Berkley r-services (rexec, rlogin, rsh) (found on 14 servers) and
     configuration files (/etc/hosts.equiv and rhosts – found on two
     servers). r-services (rexec, rlogin and rsh) (in conjunction with the
     /etc/hosts.equiv file) and individual .rhosts files, provide a large


                                - 34 -
      amount of risk to a system by allowing users to log in or execute
      commands from a trusted machine without re-authenticating;

 •    Sendmail (vrfy and expn commands)(found on six servers) –
      provides email transport. There are features and bugs to sendmail
      that may place the system at risk and could allow unauthorized
      access or remote execution of programs.

 •    Five servers allow “anonymous” connections to gather user, group,
      share, and policy information. Anonymous connections give
      individuals a method of obtaining share, group, user, and account
      policy and account lockout information from a system.

 •    Five servers had no account lockout, including the administrator
      account. Locking out accounts after a specified failed login
      attempts decreases the risk that the user accounts will be
      compromised through brute force attacks.

 •    Five servers did not have the auditing feature enabled. Auditing is
      critical for preventing and monitoring unauthorized access to the
      Windows NT environment.

 •    Seven servers had finger daemon, which gives out information
      including username, login status, last login time, and other
      information that an unauthorized user could use to plan an attack
      on the system.

Recommendation:

     22. We recommend that the Director, USMS, ensure that USMS
         management develop, implement, and monitor procedures
         establishing specific security standards and settings for running
         vulnerable services and server configurations.




                                 - 35 -
 Issue: Data Encryption

 Condition:

 Encryption is not being used to protect WIN data that is sent across
 MNET.

 Cause:

 USMS does not require WIN data to be encrypted before transmission.

 Criteria:

 DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
 “Protect the system, its data and applications, from unauthorized
 disclosure, modification, or erasure.”

 Federal Information Processing Standards Publication (FIPS PUB) 46-3,
 states: “Data that is considered sensitive by the responsible authority,
 data that has a high value, or data that represents high value should be
 cryptographically protected if it is vulnerable to unauthorized disclosure
 or undetected modification during transmission or while in storage.”

 Risk:

 Sensitive information may be the target of sniffing attacks by
 unauthorized users. If transactions are occurring that contain highly
 confidential information, it may be vulnerable to sniffing if it is not
 encrypted. Hash algorithms will help mitigate against a loss of data
 integrity should the data be manipulated in transit.

 Recommendation:

23.       We recommend that the Director, USMS, implement some level
          of encryption of WIN data before it is transferred across the
          network.




                                 - 36 -
Issue: Cisco Router Access Controls Are Inadequate

Condition:

The following router access controls are inadequate on the Cisco router:

 • Access lists are not used to restrict which hosts can access the login
   prompt.

 • The router does not have a session-timeout variable assigned.
   Timeout sessions provide additional security against consoles that
   are left unattended.

Cause:

We found that these conditions exist due to misconfiguration of the
setting by USMS.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
“Protect the system, its data and applications, from unauthorized
disclosure, modification, or erasure,” and “Disable inactive sessions so
that authentication is required to re-establish the session after 20
minutes or less of inactivity. Screen saver or workstation lockouts that
require users to re-enter their passwords, such as those available in
Windows, are acceptable.”

DOJ Order 2640.2D Chapter 2 Section 18, Password Management,
states: “All Department IT systems shall implement a system banner
that provides warnings: to employees that accessing the system
constitutes consent to system monitoring for law enforcement and other
purposes; and to unauthorized users that their use of the system may
subject them to criminal prosecution and/or criminal or civil penalties.”

Risk:

Allowing anyone on the network access to the login prompt increases
the risk of unauthorized access to the router.

Timeout sessions provide additional security against consoles that are
left unattended. If a user can gain access to a console left unattended,
they can modify the router’s configuration.


                               - 37 -
Recommendation:

   24. We recommend that the Director, USMS, ensure that USMS
       management create an appropriate access list for all routers,
       and set timeout values for an unattended console.

Issue: Cisco Router Traffic Filtering

Condition:

Traffic filtering controls are inadequate on the Cisco router. The router
does not have transmission control protocol (TCP) intercept mode
activated, which is used to watch the activity of incoming connection
requests to aid in the prevention of a denial of service attack.
Additionally, activity not explicitly allowed is not being logged to an
access list. The information obtained from the access list can be used to
examine unwarranted attempts to access the network.

Cause:

These conditions exist because of USMS’s misconfiguration of the TCP
intercept mode.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
“Protect the system, its data and applications, from unauthorized
disclosure, modification, or erasure.”

USMS Security Policy and Procedures Manual - Volume IX Section 9,
ADP System User Access Authentication, states: “Audit trails are
required on all ADP systems processing Limited Official Use or classified
information which may be accessed by more than one user and must be
reviewed by the Computer Systems Security Officer or Assistant
Computer Systems Security Officer at least on a weekly basis.”




                               - 38 -
Risk:

If TCP intercept mode is not activated, WIN becomes susceptible to
denial of service attacks, which can shut down the network.

If access lists are not used to monitor activity, unauthorized users may
be able to gain access to the router.

Recommendation

 25. We recommend that the Director, USMS, ensure that USMS
     security management properly configure TCP intercept mode and
     add logging for specific access lists.

Issue: Software Patches

Condition:

We found that the operating system software is not kept up-to-date
with respect to security patches on the winsrv and hq001 servers.
Current versions of the software patch contain processing and security
enhancements. Additionally, the patch can correct bugs that have been
identified by (or communicated to) the operating system vendor.

Cause:

This condition exists due to a lack of formal procedures for keeping
up-to-date with security patches.

Criteria:

NIST SP 800-13 Section 5.10, Telecommunications Security Guidelines
for Telecommunications Management Network, states: "All new
software features and patches shall be tested first on a development
system and approved by an appropriate testing organization, prior to
installation on an operational system. Tests that modify live data shall
not be performed. A risk analysis shall be conducted of proposed
software changes to determine their impact on network element
security. Any changes to security features or security defaults shall be
documented and made available to the user before the software is
distributed."




                               - 39 -
Risk:

If the version of the operating system and the security patches are not
current, there is an increased risk that an unauthorized user may be
able to exploit system weaknesses.

Recommendation:

     26. We recommend that the Director, USMS, ensure USMS
         management implement and document procedures to require
         that the latest security patch from the system vendor is
         obtained and that it is properly installed and configured.

Issue: Windows NT Systems Improperly Configured.

Condition:

Windows NT systems’ configuration were improperly set, as identified
below:

 •   The following Windows NT Primary Domain Controllers (PDCs) allow
     anonymous connections to gather user, group, share, and policy
     information:

     ABSSERVER
     HRD_PS7NT
     COLOSSUS
     JSD-APPS
     HQ_NOTES

 •   The following Windows NT PDCs have a minimum password length
     of 0 characters:

     ABSSERVER
     HRD_PS7NT
     COLOSSUS
     HQ_NOTES

 •   The following Windows NT PDCs have no maximum password age:

     HRD_PS7NT
     JSD_APPS



                               - 40 -
 •   The following Windows NT PDCs have the minimum password age
     set to 0 days:

     ABSSERVER
     HRD_PS7NT
     COLOSSUS
     JSD_APPS
     HQ_NOTES

 •   The following Windows NT PDCs have a password history of 0
     passwords:

     ABSSERVER
     HRD_PS7NT
     COLOSSUS
     HQ_NOTES

Similar conditions were also noted in a prior year (June 2000) report, as
identified below:

 •    The following prior-year findings relate to Windows NT PDCs
      allowing null connections to gather information:
     "Windows NT Finding 4" in the "USMS PwC Penetration Testing
      Vulnerability Report"

 •    The following prior-year findings relate to account lockout:
     "Windows NT Finding 6" in the "USMS PwC Penetration Testing
      Vulnerability Report"
     "Windows NT Finding 7" in the "USMS PwC Penetration Testing
      Vulnerability Report"

 •    The following prior-year finding relates to auditing not being
      enabled:
     "Windows NT Finding 8" in the "USMS PwC Penetration Testing
      Vulnerability Report"

Cause:

All of the conditions noted above exist due to a lack of formal Windows
NT security procedures.




                                - 41 -
Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, Access Control, states:
“Protect the system, its data and applications, from unauthorized
disclosure, modification, or erasure.”

Risk:

 •   The null credentials logon gives individuals a method of obtaining
     share, user and group, account policy, and account lockout
     information from a system. With this information, attackers can
     start brute force guessing passwords and attempt to compromise
     the system.

 •   Setting a minimum password length forces users to create
     passwords that will be more difficult to guess or crack.

 •   Account passwords that are not periodically changed increases the
     possibility of compromise and exposure to the password. It also
     increases the possibility of unauthorized access to the system.

 •   By setting a minimum password age, users are prevented from
     cycling passwords until they return to their previous password.
     Having this feature enabled prevents a user from bypassing the
     password uniqueness control.

 •   Requiring unique passwords prevents a user from recycling old
     passwords that may have been compromised.

 •   Users in the “Domain Admins” group have the highest level of
     privileges on a Windows NT Domain, and are thus the first target of
     unauthorized users. The more “Domain Admins” there are, the
     more avenues of attack there are for an unauthorized user to gain
     access.

 •   Inactive accounts are often used by intruders to break into a
     network.

 •   Locking out accounts after a specified number of failed login
     attempts decrease the risk that user accounts will be compromised
     through brute force attacks.




                                - 42 -
    •   Auditing is crucial for preventing and monitoring unauthorized
        access to the Windows NT environment.

   Recommendation:

        27. We recommend that the Director, USMS, ensure that USMS
            management develop, implement, and monitor documented
            policy establishing specific password standards for server
            configurations.

C. Audit trails. Audit trails maintain a record of system activity by
   system or application processes and by user activity. In conjunction
   with appropriate tools and procedures, audit trails can provide individual
   accountability, a means to reconstruct events, detect intrusions, and
   identify problems.

   Issue: Auditing, Logging, and Monitoring Are Not Sufficient.

   Condition:
   System activities are not adequately logged and reviewed on a regular
   basis on winsrv and hq001 servers.

   Cause:

   This condition exists due to a lack of formal procedures for auditing.

   Criteria:

   USMS Security Policy and Procedures Manual - Volume IX Section 9,
   ADP System User Access Authentication, states: “Audit trails are
   required on all ADP systems processing limited official use or classified
   information which may be accessed by more than one user and must be
   reviewed by the Computer Systems Security Officer or Assistant
   Computer Systems Security Officer at least on a weekly basis.”

   Risk:

   Insufficient logging will result in the lack of an audit trail in the event of
   an unauthorized access. Without good logging and monitoring,
   administrators are not often given early warnings for hardware and
   software errors or problems.




                                     - 43 -
    Recommendation:

         28. We recommend that the Director, USMS, ensure that USMS
             management implement procedures to ensure that system log
             messages are reviewed on a regular basis and that system
             alerts are sent when problems arise.

CONCLUSION

      We assessed management, operational, and technical controls at a
high risk to the protection of the WIN and MNET systems from unauthorized
use, loss, or modification. Specifically, we identified vulnerabilities in 16 of
the 17 control areas and noted security findings in the following areas:
review of security controls, life cycle, authorized processing, system security
plan, personnel security, physical and environmental security, production
and input/output controls, contingency planning, hardware and systems
software maintenance, data integrity, documentation, security awareness,
incident response capability, identification and authentication, logical access
controls, and audit trails. Certification and accreditation to operate the WIN
and MNET systems should be rescinded until these weaknesses are
corrected.

       We concluded that these vulnerabilities occurred because USMS
management did not fully develop, enforce, or formalize agency-wide
policies in accordance with current Department policies and procedures.
Additionally, the Department did not enforce its security policies and
procedures to ensure the WIN and MNET systems were protected from
unauthorized use, loss, or modification through its certification and
accreditation process. Furthermore, many of the vulnerabilities identified
during this audit could have been prevented if USMS security management
had followed-up on corrective actions for similar vulnerabilities identified in
previous years.

       Additionally, many of the causes stated in this report evidence a lack
of commitment by USMS to implement timely corrective actions. This is
illustrated by the inadequate number of individuals on the IT security team
assigned to develop the documents required for WIN and MNET certification
and accreditation.




                                     - 44 -
                                                                  APPENDIX I

          NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
                     GENERAL AREAS OF CONTROL

     The review focused on evaluating the adequacy of management,
operational and technical controls over the following specific control areas:

I. MANAGEMENT CONTROLS. Management controls focus on the
management of the IT security system and the management of risk for a
system. They are techniques and concerns that are normally addressed by
management.

   •   Risk Management. Risk is the possibility of something adverse
       happening. Risk management is the process of assessing risk, taking
       steps to reduce risk to an acceptable level, and maintaining that level
       of risk. Assessing risk management involves evaluating the USMS
       efforts to complete the following critical procedures:

          o Periodic performance of a system risk assessment had been
            performed.
          o Program officials understand the risk to systems under their
            control and had determined the acceptable level of risk.

   •   Review of Security Controls. Routine evaluations and response to
       identified vulnerabilities are important elements of managing security
       controls of a system. Determining whether review of security controls
       had been adequately performed requires the auditor to assess if the
       following critical items were completed:

          o A system security control review had been performed for both
            WIN and MNET and interconnected systems.
          o Management ensured effective implementation of corrective
            actions.

   •   Life Cycle. Like other aspects of an IT system, security is best
       managed if planned for throughout the IT system life cycle. There are
       many models for the IT system life cycle but most contain five basic
       phases: initiation, development/acquisition, implementation,




                                     - 45 -
      operation, and disposal. Assessing a system’s life cycle involves
      identifying if the following critical items are in place for WIN and
      MNET:

         o A system development life cycle methodology.
         o System change controls as programs progress through testing to
           final approval.

  •   Authorize Processing (Certification and Accreditation).
      Authorize processing (also referred to as certification and
      accreditation) provides a form of assurance of the security of the
      system. To determine whether WIN and MNET had been appropriately
      authorized to process data involves analyzing critical documents that
      identifies whether:

         o The system had been certified/recertified and authorized to
           process (accredited).
         o The system is operating on an interim authority in accordance
           with specified agency procedures.

  •   System Security Plan. A system security plan provides an overview
      of the security requirements of the system and describes the controls
      in place or planned for meeting those requirements. The plan
      delineates responsibilities and expected behavior of all individuals who
      access the system. Assessing whether the WIN and MNET systems
      have an adequate system security plan requires identifying if the
      following critical elements were met:

         o A system security plan had been documented for the system and
           all interconnected systems if the boundary controls are
           ineffective.
         o The plan is kept current.

II. OPERATIONAL CONTROLS: Operational controls address security
controls that are implemented and executed by people. These controls are
put in place to improve the security of a particular system. They often
require technical or specialized expertise and rely upon management
activities as well as technical controls.

  •   Personnel Security. Many important issues in computer security
      involve human users, designers, implementers, and managers. A
      broad range of security issues relates to how these individuals interact
      with computers and the access and authorities they need to do their


                                     - 46 -
    jobs. Assessing personnel security involves evaluating the USMS
    efforts to complete the following critical procedures:

      o Duties are separated to ensure least privilege and individual
        accountability.
      o Appropriate background screening for assigned positions is
        completed prior to granting access.

•   Physical and Environmental Protection. Physical security and
    environmental security are the measures taken to protect systems,
    buildings, and related supporting infrastructures against threats
    associated with their physical environment. Assessing physical and
    environmental protection involves evaluating the USMS efforts to
    complete the following critical procedures:

      o Adequate physical security controls have been implemented and
        are commensurate with the risks of physical damage or access.
      o Data is protected from interception.
      o Mobile and portable systems are protected.

•   Production, Input/Output Controls. There are many aspects to
    supporting IT operations. Topics range from a user help desk to
    procedures for storing, handling, and destroying media. Assessing
    production, input/output controls involves evaluating the USMS efforts
    to ensure the following critical elements are met:

      o User support is being provided to WIN and MNET network users.
      o Media controls are in place for the WIN and MNET network.

•   Contingency Planning. Contingency planning ensures continued
    operations by minimizing the risk of events that could disrupt normal
    operations and having an approach in place to respond to those events
    should they occur. Assessing contingency planning involves evaluating
    the USMS efforts to complete the following critical procedures:

      o Identify the most critical and sensitive operations and their
        supporting computer resources.
      o Develop and document a comprehensive contingency plan.
      o Have tested contingency/disaster recovery plans in place.

•   Hardware and System Software Maintenance. These are controls
    used to monitor the installation of, and updates to, hardware and
    software to ensure that the system functions as expected and that a


                                 - 47 -
    historical record is maintained of changes. Some of these controls are
    also covered in the Life Cycle Section. Assessing hardware and system
    software maintenance involves evaluating the USMS efforts to
    complete the following critical procedures:

      o Access is limited to system software and hardware.
      o All new and revised hardware and software are authorized,
        tested, and approved before implementation.
      o Systems are managed to reduce vulnerabilities.

•   Data Integrity. Data integrity controls are used to protect data from
    accidental or malicious alteration or destruction and to provide
    assurance to the user the information meets expectations about its
    quality and integrity. Assessing data integrity involves evaluating the
    USMS efforts to complete the following critical procedures:

      o Virus detection and elimination software is installed and
        activated.
      o Data integrity and validation controls are used to provide
        assurance that the information has not been altered and the
        system functions as intended.

•   Documentation. The documentation contains descriptions of the
    hardware, software, policies, standards, procedures, and approvals
    related to the system and formalize the system’s security controls.
    Assessing documentation involves evaluating the USMS efforts to
    complete the following critical procedures:

      o There is sufficient documentation that explains how
        software/hardware is to be used.
      o There are documented formal security and operational
        procedures.

•   Security Awareness, Training, and Education. People are a
    crucial factor in ensuring the security of computer systems and
    valuable information resources. Security awareness, training, and
    education enhance security by improving awareness of the need to
    protect system resources. Additionally, training develops skills and
    knowledge so computer users can perform their jobs more securely
    and build in-depth knowledge. Assessing security awareness, training,
    and education involves evaluating the USMS efforts to complete the
    following critical procedures:



                                  - 48 -
         o Employees have received adequate training to fulfill their
           security responsibilities.

  •   Incident Response Capability. Computer security incidents are an
      adverse event in a computer system or network. Such incidents are
      becoming more common and their impact far-reaching. The following
      questions are organized according to two critical elements. Assessing
      incident response capability involves evaluating the USMS efforts to
      complete the following critical procedures:

         o There is a capability to provide help to users when a security
           incident occurs in the system.
         o Incident related information is shared with appropriate
           organizations.

III. TECHNICAL CONTROLS. Technical controls focus on security controls
that the computer system executes and depend upon the proper functioning
of the system to be effective. Technical controls require significant
operational considerations and should be consistent with the management of
security within the organization.

  •   Identification and Authentication. Identification and
      authentication is a technical measure that prevents unauthorized
      people or processes form entering an IT system. Access Control
      usually requires that the system be able to identify and differentiate
      among users. Authentication is verification that a person’s claimed
      identity is valid and it is usually implemented through the use of
      passwords. Assessing identification and authentication involves
      evaluating the USMS efforts to complete the following critical
      procedures:

         o Users are individually authenticated via passwords, tokens, or
           other devices.
         o Access controls are enforcing segregation of duties.

  •   Logical Access Controls. Logical Access Controls are the system-
      based mechanisms used to designate who or what is to have access to
      a specific system resource and the type of transactions and functions
      that are permitted. Assessing logical Access Controls involves
      evaluating the USMS efforts to complete the following critical
      procedures:




                                    - 49 -
      o Logical access controls restrict users to authorized transactions
        and functions.
      o There are controls over network access.
      o There controls implemented to protect the integrity of the
        application and the confidence of the public when the public
        accesses the system.

•   Audit Trails. Audit trails maintain a record of system activity by
    system or application processes and by user activity. In conjunction
    with appropriate tools and procedures, audit trails can provide
    individual accountability, a means to reconstruct events, detect
    intrusions, and identify problems. Assessing audit trails involves
    evaluating the USMS efforts to complete the following critical
    procedure:

      o Activity involving access to and modification of sensitive or
        critical files is logged, monitored, and possible security violations
        are investigated.




                                  - 50 -
         APPENDIX II




- 51 -
- 52 -
- 53 -
- 54 -
- 55 -
- 56 -
- 57 -
                                                       APPENDIX III

     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION ANALYSIS AND
            SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT


Recommendation Number:

1.      Resolved. The USMS agreed with the need for appropriate security
        controls and stated that while some progress has been made,
        resolution of many of the system vulnerabilities requires additional
        security resources. To close this recommendation, the USMS needs to
        provide the OIG evidence of the USMS’s corrective action plan to track
        and resolve IT security vulnerabilities.

2.      Resolved. The USMS agreed with the need to implement a System
        Development Life Cycle (SDLC). To close this recommendation, the
        USMS needs to provide the OIG with evidence that the Information
        Technology Investment Management/SDLC methodology was
        approved and implemented.

3.      Resolved. The USMS agreed to place WIN and MNET in an Interim
        Approval To Operate (IATO) status for six months. To close this
        recommendation, the USMS needs to provide the OIG evidence that an
        IATO is obtained and a corrective action plan is established within the
        six month timeframe, including preparing the ST&E, contingency plan
        (with testing), and a system security plan.

4.      Resolved. The USMS agreed with the need for an adequate WIN
        system security plan. To close this recommendation, the USMS needs
        to provide the OIG with evidence that the system security complies
        with NIST requirements and that corrective actions were taken to
        ensure WIN and MNET systems meet the requirements set forth in the
        C&A process.

5.      Resolved. The USMS agreed with the need for proper separation of
        duties and stated that procedures are in place requiring separation of
        duties. To close this recommendation, the USMS needs to provide the
        OIG with the procedures requiring separation of duties between
        system developers and system administrators.

6.      Resolved. The USMS agreed with the need for adequate physical and
        environmental controls and indicated all USMS production servers had
        been moved to a new location. To close this recommendation, the
        USMS needs to provide the OIG evidence that the new location’s


                                     - 58 -
      physical and environmental controls were implemented as described in
      DOJ Order 2640.2D.

7.    Resolved. The USMS agreed with the need to review world-writeable
      files. To close this recommendation, the USMS needs to provide the
      OIG evidence that the (a) WIN files and directories were reviewed, (b)
      procedures were developed for proper assignment of file permissions
      for users, and (c) the policy of “least privilege” was implemented.

8.    Resolved. The USMS agreed with the need to review the use of
      parameter settings. To close this recommendation, the USMS needs to
      provide the OIG evidence that the user parameter settings were
      reviewed for proper assignment of user parameters.

9.    Resolved. The USMS agreed that written procedures need to be
      prepared to assist help desk personnel in performing their daily
      responsibilities. To close this recommendation, the USMS needs to
      provide the OIG evidence that written procedures are in place to assist
      help desk personnel in responding to user problems.

10.   Resolved. The USMS agreed that written media control procedures
      and audit trails need to be established. To close this recommendation,
      the USMS needs to provide the OIG evidence once documented
      procedures are established to control how and when media and other
      types of USMS data are transferred. In addition, please provide
      documentation showing how audit trails will be maintained to evidence
      such events.

11.   Resolved. The USMS agreed that a documented MNET contingency
      plan is needed. To close this recommendation, the USMS needs to
      provide the OIG evidence that a contingency plan is approved and
      tested.

12.   Resolved. The USMS agreed that Cisco router fault tolerance is
      inadequate. To close this recommendation, the USMS needs to
      provide the OIG evidence that policies and procedures are
      implemented to ensure all stable runner router configuration files are
      archived.

13.   Resolved. The USMS agreed with the need to remove system
      software that is not required. To close this recommendation, the
      USMS needs to provide the OIG evidence once the Justice
      Consolidated Office Network (JCON) deployment has been performed


                                    - 59 -
      showing the removal of any software not required for business-related
      functions.

14.   Resolved. The USMS agreed with the need to develop policies and
      procedures for virus and intrusion detection. To close this
      recommendation, the USMS needs to provide the OIG the policies and
      procedures developed to ensure the installation and use of virus
      detection software and intrusion detection software. In addition,
      please provide evidence that IT personnel are receiving training to use
      the software properly.

15.   Resolved. The USMS agreed with the need to create a system-
      warning banner. To close this recommendation, the USMS needs to
      provide the OIG evidence showing creation of a system-warning
      banner that was reviewed and approved by the USMS’s Office of
      General Counsel (OGC).

16.   Resolved. The USMS agreed with the need to develop and implement
      policies and procedures for securing Cisco routers. To close this
      recommendation, the USMS needs to provide the OIG evidence that
      policies and procedures are developed and implemented.

17.   Resolved. The USMS agreed with the need to establish Rules of
      Behavior. To close this recommendation, the USMS needs to provide
      the OIG evidence that the OGC was contacted and the Rules of
      Behavior finalized to comply with Department guidance.

18.   Resolved. The USMS stated in their response that a Computer
      Incident Response Plan, including designation of incident response
      responsibilities, was prepared in October 2002. To close this
      recommendation, the USMS needs to provide the OIG with a copy of
      the Computer Incident Response Plan.

19.   Resolved. The USMS concurred with enforcing Department-wide
      identification and authentication policies. To close this
      recommendation, the USMS needs to provide the OIG evidence that a
      process is established to enforce the Department-wide policies and a
      system administrator is established to ensure accounts do not remain
      inactive on the system and active accounts are appropriate.

20.   Resolved. The USMS concurred that password controls are
      inadequate. To close this recommendation, the USMS needs to
      provide the OIG evidence that the password policies were updated in


                                    - 60 -
      compliance with Department’s policies. In addition, please provide the
      OIG evidence that security tools are installed on servers to enforce
      password restrictions.

21.   Resolved. The USMS agreed to delete accounts that do not require
      access to a privileged group. To close this recommendation, the USMS
      needs to provide the OIG evidence that the accounts were deleted.

22.   Resolved. The USMS agreed to establish security standards and
      settings for running vulnerable services and server configuration. To
      close this recommendation, the USMS needs to provide the OIG with
      the security standards and settings that are established.

23.   Resolved. The USMS agreed to review the level of WIN data
      encryption. To close this recommendation, the USMS needs to provide
      the OIG evidence of the level of encryption implemented before data is
      transferred across the network.

24.   Resolved. The USMS agreed to review Cisco router access controls.
      To close this recommendation, the USMS needs to provide the OIG
      with the an updated access list for all routers and documentation
      showing that a 20 minute timeout is set for an unattended console.

25.   Resolved. The USMS agreed to review and incorporate changes to its
      router configurations. To close this recommendation, the USMS needs
      to provide the OIG with evidence that procedures include properly
      configuring TCP intercept mode and logging for specific access lists.

26.   Resolved. The USMS agreed to develop and implement procedures
      for security patches. To close this recommendation, the USMS needs
      to provide the OIG evidence that the security patch is obtained from
      the vendor in a timely manner and tested prior to installation.

27.   Resolved. The USMS agreed to establish, disseminate, and enforce
      password policies and standards. To close this recommendation, the
      USMS needs to provide the OIG evidence that the USMS developed,
      disseminated, and monitors its password policies and standards.

28.   Resolved. The USMS agreed to assign a person to review system logs
      on a regular basis and transmit system alert when problems arise. To
      close this recommendation, the USMS needs to provide the OIG with
      the USMS personnel assigned responsibility for reviewing system logs.
      In addition, the USMS needs to provide the OIG with the procedures


                                   - 61 -
implemented to ensure that system logs messages are reviewed on a
regular basis and that system alerts are sent when problems arise.




                            - 62 -
